                                     SOCIAL SECURITY
MEMORANDUM


Date:   August 31, 2005                                                     Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Administrative Costs Claimed by the Pennsylvania Bureau of Disability Determination
        (A-15-04-14080)


        The attached final report presents the results of our audit. The objectives of our audit of
        the Pennsylvania Bureau of Disability Determination were to (1) evaluate internal
        controls over the accounting and reporting of administrative costs, (2) determine if costs
        claimed were allowable and properly allocated, (3) reconcile funds drawn down with
        claimed costs, and (4) assess limited areas of the general security controls
        environment.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                            S
                                                            Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        Stephen M. Schmerin, Secretary, Pennsylvania Department of Labor and Industry
        Joel Weisberg, Director, Bureau of Disability Determination
        Connie S. Huber, Comptroller, Labor, Education and Community Services
        Lenore R. Carlson, Associate Commissioner for Office of Disability Determinations
        Jeff Hild, Associate Commissioner for Office of Financial Policy and Operations
        Candace Skurnik, Director, Audit Management and Liaison Staff
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
   BY THE PENNSYLVANIA BUREAU
   OF DISABILITY DETERMINATION

     August 2005   A-15-04-14080




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
The objectives of our audit of the Pennsylvania Bureau of Disability Determination
(PA-BDD) were to (1) evaluate internal controls over the accounting and reporting of
administrative costs, (2) determine if costs claimed were allowable and properly
allocated, (3) reconcile funds drawn down with claimed costs, and (4) assess limited
areas of the general security controls environment.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by disability
determination services (DDS) in each State in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring adequate
evidence is available to support its determinations. SSA reimburses the DDS for
100 percent of allowable expenditures. The expenditures include both direct and
indirect costs. The Commonwealth of Pennsylvania Department of Labor and Industry
(PA-L&I) is the parent agency of the PA-BDD.

RESULTS OF REVIEW
Generally, PA-L&I had adequate controls over the $144 million in administrative costs
claimed during the 2-year audit period ended September 30, 2003; however, we could
not substantiate about 2 percent of these costs. PA-L&I charged $49,418 for
unallowable costs that did not benefit PA-BDD. Also, we found insufficient
documentation for PA-L&I charges of $730,162 for All Other Nonpersonnel costs and
$11,948 for Multifund costs. We identified invalid unliquidated obligations amounting to
$2.2 million. Additionally, we found expenditures amounting to $132,493 charged to
incorrect Federal fiscal years (FFY). We conducted a limited evaluation of general
security controls of the PA-BDD’s locations and identified several areas where
improvements can be made.

RECOMMENDATIONS

We recommend that the SSA Regional Office (RO) work with the PA-L&I staff to
improve the documentation of the costs claimed and validate the unsupported costs.
We also recommend the RO instruct the PA-L&I to reimburse SSA $49,418 for
disallowed costs, and deobligate $2.2 million of invalid unliquidated obligations. PA-L&I
needs to improve internal controls to prevent costs from being charged to incorrect
FFYs and make correcting entries for costs charged to the wrong FFYs. Finally, the
PA-BDD needs to improve the security over its buildings.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                   i
SSA COMMENTS

SSA agreed with our recommendations. See Appendix D for the text of SSA’s
comments.

COMMONWEALTH OF PENNSYLVANIA COMMENTS
In its response to our eight recommendations, PA-L&I generally agreed to implement or
had already implemented five recommendations. For the three recommendations with
which PA-L&I disagreed, it believed that it had charged costs appropriately and
provided the Office of the Inspector General with sufficient documentation.

OIG RESPONSE
We appreciate the comments from SSA and PA-L&I. We reaffirm our conclusions and
recommendations. The PA-L&I was unable to provide adequate documentation
showing the PA-BDD was allocated central services bureau costs in proportion to the
benefits received. Central services bureau employees used various methods to allocate
portions of their workday rather than actual time worked as required by Office of
Management and Budget Circular A-87 Cost Principles for State, Local, and Indian
Tribal Governments. As a result, we could not determine the validity of central service
Direct Labor costs and Multifund costs charged to the PA-BDD.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                 ii
                                                                     Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 3

   Unsupported All Other Nonpersonnel Costs ............................................................... 3

        Insufficiently Supported Direct Labor Costs ........................................................... 3

        Unsupported Multifund Cost Allocations ................................................................ 4

        Unallowable Allocation of Parking.......................................................................... 5

   Unsupported Unliquidated Obligations ........................................................................ 5

   Expenses Charged to the Wrong Federal Fiscal Year ................................................ 6

   General Security Deficiencies ..................................................................................... 7

CONCLUSIONS AND RECOMMENDATIONS............................................................... 8

APPENDICES

Appendix A – Acronyms

Appendix B – Scope and Methodology

Appendix C – Schedules of Obligations Reported, Questioned and Allowed

Appendix D – Agency Comments

Appendix E – State Agency Comments

Appendix F – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)
                                                                  Introduction
OBJECTIVE
The objectives of our audit of the Pennsylvania Bureau Disability Determination
(PA-BDD) were to (1) evaluate internal controls over the accounting and reporting
of administrative costs, (2) determine if costs claimed were allowable and properly
allocated, (3) reconcile funds drawn down with claimed costs, and (4) assess limited
areas of the general security controls environment.

BACKGROUND
The Disability Insurance (DI) program was established in 1956 under Title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, and/or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies
for the development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by disability determination
services (DDS) in each State in accordance with Federal regulations.1 In carrying
out its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB) Circular
A-87, Cost Principles for State, Local, and Indian Tribal Governments. For each
Federal fiscal year (FFY), the DDS submits a quarterly State Agency Report of



1
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et. seq.
2
    31 C.F.R. Part 205.
3
    Pub. L. No. 101-453, 31 U.S.C. § 6501.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                       1
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.4

PA-BDD is a component within the Pennsylvania Department of Labor and Industry
(PA-L&I). For FFYs 2002 through 2003, PA-BDD had about 617 employees who were
located in three cities in the Commonwealth: Greensburg, Wilkes-Barre, and the central
office in Harrisburg, Pennsylvania. SSA provided an authorized budget of
$144.5 million for FFY 2002 and 2003 administrative costs. As of September 30, 2003,
PA-L&I reported total disbursements for the PA-BDD of approximately $133 million and
unliquidated obligations of $11 million, which equals $144 million of obligations. The
obligated costs by category for the 2-year period were:


                                                      FFYs 2002 & 2003
                       Cost Areas                     Total Obligations

                     Payroll                                    $85,269,522
                     Medical Service                             38,967,672
                     Indirect                                       952,668
                     All Other                                   18,930,539
                     Total                                     $144,120,401


PA-L&I maintains a process for charging Direct Labor costs for those staff who work on
other programs. The staff maintains time sheets to indicate time spent on each
program. On a monthly basis the time sheet data are input into a direct cost report and
the programs are charged.

PA-L&I also maintains a form of cost distribution know as Multifund allocations. These
costs represent services and other purchases for the PA-L&I, but are not part of the
Indirect cost process. The PA-BDD routinely is charged a percentage of these costs,
which are recorded as All Other Nonpersonnel Costs.




4
 POMS DI 39506.200, B, 4, “Unliquidated obligations represent obligations for which payment has not
yet been made. Unpaid obligations are considered unliquidated whether or not the goods or services
have been received.”


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                                  2
                                                            Results of Review
Generally, PA-L&I had adequate controls over the $144 million in administrative costs
claimed for reimbursement and unliquidated obligations during the 2-year audit period
ended September 30, 2003; however, we could not substantiate about 2 percent of
these costs. We identified four areas of control weakness: unsupported costs,
unsupported unliquidated obligations, expenses recorded in the wrong FFYs and
general security deficiencies.

UNSUPPORTED ALL OTHER NONPERSONNEL COSTS
PA-L&I charged the PA-BDD $49,418 in All Other Nonpersonnel Costs that did not
benefit SSA’s programs. The unallowable costs of $49,418 included 1) employee
breaks of $6,594, 2) lobbying costs of $32,995, and 3) parking costs of $9,829. Further,
we question $730,162 in All Other Nonpersonnel direct costs over the 2-year period
because of insufficient supporting documentation. We also question $11,948 in
unsupported Multifund costs. We could not determine if the PA-BDD benefited from
these charges.

INSUFFICIENTLY SUPPORTED DIRECT LABOR COSTS

It is the practice of PA-L&I staff who conduct work for the various PA-L&I components to
allocate costs to the PA-BDD as an All Other Nonpersonnel cost. We were unable to
determine the basis for Direct Labor allocations and whether the PA-BDD received a
benefit from such services.

At our request, PA-L&I contacted 13 employees selected from a group of 169 to
determine the basis for charging time to the PA-BDD. Using the information provided
by PA-L&I and our analysis of the timesheets, we determined that 10 of the
13 employees had allocated their time based on various methods. Three of the
13 employees had charged actual time to the PA-BDD. The various allocation methods
reported to us included splitting time equally among all of the programs, or charging the
bulk of time to one agency and allocating the remainder equally to the other agencies.
One of the 13 employees routinely charged his breaks to the PA-BDD and all of
productive time to other components. We estimate that during the 2-year period of our
audit this employee improperly charged $6,594 to the PA-BDD. OMB Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments, requires employees to
record actual time spent on the activity charged.5

One of the 13 employees worked in the Legislative Affairs Office (LAO). PA-L&I was
unable to provide supporting records to demonstrate a benefit of LAO to the PA-BDD.

5
 OMB A-87, Attachment B, section 11.h.5.a., referring to employees who work on multiple activities or
cost objectives states in part that personnel activity reports or equivalent documentation must reflect an
after-the-fact distribution of actual activity of each employee (This section was updated after
May 10, 2004, to become section 8.h.5.a.).


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                                         3
The PA-L&I’s cost allocation plan describes the objective of the LAO as “…attends
legislative sessions to monitor and influence the progress and substance of legislation
affecting the Department.” Costs relating to influencing State legislatures or a
legislative body are not allowed under Federal Acquisition Regulations.6 During FFYs
2002 and 2003 the PA-BDD was charged $32,995 by the LAO.

We analyzed 1 month of Direct Labor costs charged to the PA-BDD, valued at $36,198.
PA-L&I provided us with 98 staff timesheets in support of the sample transaction. Our
analysis showed 62 of the 98 timesheets contained various methodologies to allocate
time to the PA-BDD. We were advised by PA-L&I management that employee time
sheets were to be prepared using actual time worked, and not based on an allocation.

Because of insufficient supporting documentation over PA-L&I labor costs we question
the costs included in our 2-year audit period. PA-L&I labor costs and offsets amounted
to $730,162 after excluding the unallowed costs of breaks and LAO. The SSA Regional
Office (RO) will need to work with the PA-L&I to determine the validity of these labor
costs. The SSA RO should direct PA-L&I to refund to SSA the $6,594 paid for
employee breaks and the $32,995 paid for LAO’s expenses.

UNSUPPORTED MULTIFUND COST ALLOCATIONS

PA-L&I distributed miscellaneous costs known as Multifund allocations to the PA-BDD.
The Multifund allocations were reported as part of the All Other Nonpersonnel costs.
There was insufficient documentation to support how the amounts were calculated, and
whether the PA-BDD received a benefit from the Multifund services. With the
implementation of the Systems Analysis and Program system in July 2003, Multifund
allocation transfers became automated. Since being automated it was found that
problems had arisen in the system coding, which prevented detailed information from
being provided. This was not identified as a problem for the period prior to July 2003.
OMB Circular A-87 requires, “Factors affecting allowability of costs…be adequately
documented.”7 The PA-L&I needs to improve accounting information to provide
assurance that allocated costs are reasonable and necessary for the PA-BDD. Our
review of expenditure information for July through September FFY 2003 identified
198 Multifund allocation transactions amounting to $11,948 that did not have sufficient
supporting documentation.

Because of insufficient supporting documentation for PA-L&I Multifund costs, we
question the costs included in our 2-year audit period. The SSA RO needs to work with
the PA-L&I to determine the validity of the $11,948 in Multifund costs.




6
    48 C.F.R. § 31.603(b)(2), 41 U.S.C. § 256(e).
7
    OMB Circular A-87, Attachment A, C.1.j.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                      4
UNALLOWABLE ALLOCATION OF PARKING

The PA-BDD paid expenses of $4,289 and $5,540 for FFYs 2002 and 2003,
respectively, for parking at the PA-L&I building. However, PA-BDD had no assigned
parking places in the garages. An allocation of parking costs was charged to the
PA-BDD because it is part of PA-L&I. The PA-BDD was located in other parts of the
city and/or Commonwealth and provided its own parking for employees.

We believe these charges to be unreasonable considering the lack of benefit derived.
OMB Circular A-87 states, “…costs must…be necessary and reasonable for proper and
efficient performance and administration of Federal awards.”8 OMB A-87 also states,
“…a cost is allocable to a particular cost objective…in accordance with relative benefits
received.”9 SSA’s RO should direct PA-L&I to reimburse SSA for the $9,829 parking
expenses charged for the 2-year period and discontinue the allocation of parking costs
to PA-BDD.

UNSUPPORTED UNLIQUIDATED OBLIGATIONS
The PA-BDD reported $2,151,869 of unliquidated obligations that were not supported.
Starting in FFY 2002, SSA made funds available for planned moves of the Greensburg
and Wilkes-Barre offices and an expansion of the Harrisburg location. SSA provided
$770,775 in FFY 2002 funds and $1,381,094 in FFY 2003 funds for the moves and
expansion.

During our field work we determined as late as January 12, 2005, no specific move date
or expansion start date had been finalized. We also noted that no purchase orders or
contracts had been issued. SSA’s Program Operations Manual System (POMS) states,
“Obligations for supplies, equipment, and other contractual services…should be
supported by a valid purchase order or other binding agreement to pay for goods or
services.”10 POMS also requires that for obligations to be valid there must be a bona
fide need. Further, this need must exist within the year of funding, but the purchase
order or contract can be finalized up to 6 months after the FFY end.11

The RO should direct PA-L&I to deobligate the obligations relating to the FFYs 2002
and 2003 move/expansion efforts.




8
    OMB Circular A-87, Attachment A, C.1.a.
9
    OMB Circular A-87, Attachment A, C.3.a.
10
     POMS DI39506.201, E., 4.
11
     POMS DI39506.200, B., 1.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                    5
EXPENSES CHARGED TO THE WRONG FEDERAL FISCAL YEAR
We identified expense transactions totaling $132,493 that were charged to the wrong
FFY. Improper recording of expense transactions prevents SSA from accurately
monitoring the status of PA-BDD’s expended and unexpended appropriations. The
incorrect reporting of obligations also affects SSA’s ability to manage the allocation and
use of budgeted funds to the various States. The improper recording of FFY expenses
also prevents PA-BDD from managing its funds. POMS requires obligations be based
on a bona fide need for goods or services that exist within the FFY.12

Additional information on the type of cost and amounts follows:

      •   Rental costs – costs amounting to $110,876 for FFY 2004 were charged to
          FFY 2003 funds. The expenditures were identified as part of our review of
          unliquidated obligations. We identified four payment amounts: $33,923
          (November 2003), $37,505 (January 2004), $33,923 (March 2004), and
          $5,525 (March 2004) recorded in the wrong FFY.

      •   Prepaid supplies – PA-BDD bought $3,769 in supplies in June 2001, and later
          charged the cost to FFY 2002 funds.

      •   Telecommunication usage – a FFY 2003 Wilkes-Barre PA-BDD bill for the
          service period July 1st through July 31st 2003, for $2,704 was charged to
          FFY 2002 funds.

      •   Payroll costs – payroll transactions that totaled $15,144 for FFY 2003 pay
          periods ended September 5, 2003 and September 9, 2003, were charged to
          FFY 2002.

PA-L&I’s internal controls to detect transactions recorded in the wrong FFY were not
effective. Internal controls were sufficient over expenditure processes, but weaker over
which SSA fund years would be charged. SSA’s RO should instruct the PA-L&I to
adjust the expenses to the proper FFYs and revise its Form SSA-4513 accordingly.
Additionally, the RO should instruct PA-L&I to improve internal controls to prevent costs
from being charged to incorrect FFYs.




12
     POMS DI39506.200, B., 1.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                         6
GENERAL SECURITY DEFICIENCIES
We conducted a limited evaluation of the general security controls environment of the
PA-BDD Greensburg, Harrisburg, and Wilkes-Barre locations. To complete this work
we applied a check list based on the SSA Disability Determination Services Security
Document (DSD), September 2003 version. We identified three control weaknesses:

      •    For all three locations, we found the walls of the computer rooms were not slab to
           slab construction, but contained an open area above the drop ceiling. There was
           no intrusion detection system (IDS)13 in these open areas, nor any type of barrier
           to prevent intrusion through the ceiling opening. SSA’s DSD states:

               “The walls of the computer room should have slab-to-slab construction to
               prevent unauthorized entry or the computer room must be made secure by
               installing chain link fences, heavy wire mesh, or motion sensor devices in the
               space between the false ceiling and the true ceiling of the facility.”14

           The PA-BDD should improve the security of its computer rooms.

      •    In the work areas in the Harrisburg, and Wilkes-Barre PA-BDD, we noted a
           number of terminals were logged on to the case processing system, but were
           unattended. The SSA DSD states, “A DDS system user must…log off or lock the
           system when they leave their workstation.”15 PA-BDD management should
           reinforce good security habits to ensure all staff log off when work stations are
           unattended.

      •    The work areas in the Wilkes-Barre PA-BDD lacked IDS devices. The
           Wilkes-Barre location is a single level building with perimeter, ground level
           windows. An IDS covered internal hallways but not the perimeter rooms where
           case files were stored. Our assessment of the work space found the windows
           were not wired with alarms, and the work area had no motion detectors. The
           SSA DSD states, “An intrusion detection system is required in all facilities unless
           determined unnecessary.”16 We believe the situation warrants increased
           security. Management should enhance security by installation of IDS devices
           within the work areas to deter intrusions.




13
     An IDS consists of devices which typically employ electronic sensors to detect unauthorized intrusion.
14
     DSD Section VII, Internal Office Security.
15
     DSD Section II, DDS System Users.
16
     DSD Section VII, Internal Office Security.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                                          7
                                                  Conclusions and
                                                 Recommendations
Generally, the parent agency of the PA-BDD, the PA-L&I, had adequate controls over
the $144 million in administrative costs claimed during the 2-year audit period ended
September 30, 2003; however, we could not substantiate about 2 percent of these
costs. PA-L&I did not maintain sufficient documentation for us to verify the accuracy of
certain claimed expenses or to determine if PA-BDD benefited from the costs incurred.
We question $730,162 of Direct Labor costs charged by the PA-L&I because of
inadequate supporting documentation. Similarly, we question Multifund costs of
$11,948 because of insufficient supporting documentation. We could not determine
whether the costs the PA-BDD charged were an accurate share of the cost and whether
PA-BDD benefited from the services. We have determined specific costs claimed for
the allocation of an employee’s breaks of $6,594 and LAO of $32,995, as unallowable
costs.

Additionally, the $9,829 in parking costs at the PA-L&I building charged to PA-BDD
were not allowable. Also, we found unliquidated obligations of $2.2 million were not
supported by purchase orders or contracts, and expenditures of $132,493 were charged
to incorrect FFYs. Finally, in our limited evaluation of general security controls, we
identified several areas that could be improved.

We recommend SSA’s RO:

   1. Work with the PA-L&I to determine the validity of the charges of $433,291 in
      FFY 2002, and $296,871 in FFY 2003 in unsupported PA-L&I Direct Labor, as
      well as $11,948 in FFY 2003 Multifund costs, which would allow a reviewer to
      understand why costs were charged to the PA-BDD and the purpose of the
      services.

Also, we recommend SSA’s RO instruct the PA-L&I and PA-BDD to:

   2. Reimburse SSA for $21,285 in FFY 2002, and $11,710 in FFY 2003 for
      unallowable costs of the LAO, and $3,297 in FFY 2002 and $3,297 in
      FFY 2003 for the allocation of an employee’s breaks charged to PA-BDD.

   3. Discontinue the practice of charging PA-BDD for parking costs at the PA-L&I and
      reimburse SSA the parking costs of $4,289 for FFY 2002 and $5,540 for
      FFY 2003.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                   8
   4. Improve internal controls over the obligation process to ensure only properly
      supported obligations are recorded and deobligate the invalid move/expansion
      unliquidated obligations of $770,775 for FFY 2002 and $1,381,094 for FFY 2003.

   5. Improve internal controls to prevent costs from being charged to incorrect FFYs
      and make correction entries to adjust $132,493 of costs charged to the wrong
      FFYs:

          •   $110,876 of rental costs from FFY 2003 to FFY 2004.
          •   $3,769 for supplies charged from FFY 2002 to FFY 2001.
          •   $2,704 for telecommunication usage from FFY 2002 to FFY 2003.
          •   $15,144 in payroll costs from FFY 2002 to FFY 2003.

   6. Improve security in the PA-BDD computer rooms by restricting possible access
      through the open ceiling.

   7. Reinforce good security habits to ensure all staff log off their computers when
      stations are unattended.

   8. Increase the security of the Wilkes-Barre location through installation of an IDS in
      staff work areas where windows and rooms have no sensors.

SSA COMMENTS

SSA agreed with our recommendations. The full text of SSA’s comments may be found
in Appendix D.

STATE AGENCY COMMENTS

In its response to our Recommendations, PA-L&I generally agreed to implement or had
already implemented Recommendations 4 through 8. For the recommendations with
which PA-L&I disagreed, it believed it had charged costs appropriately and provided the
Office of the Inspector General (OIG) with sufficient documentation.

PA-L&I disagreed with Recommendations 1, 2 and 3 because it allocated Direct Labor
and Multifund costs charges using the same percentages as in the approved Indirect
Cost Allocation Plan. It also believed that it had provided sufficient documentation to
the OIG to support the Direct Labor and Multifund costs expenses.

While PA-L&I did not believe improvements in internal controls were necessary, it
corrected the deficiencies discussed in Recommendations 4 and 5. Specifically, the
PA-L&I stated that the balances of the unliquidated obligations were being deobligated
and the charges to the wrong FYs were corrected, respectively.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                      9
PA-L&I agreed with Recommendations 6, 7 and 8 to increase its security controls
relating to computer room security, to ensure unattended computers are logged off and
to have greater coverage by IDSs in the new Wilkes-Barre office.

Because of the length of PA-L&I’s comments, we did not include the full text as an
appendix. A complete copy of PA-L&I’s comments may be obtained by written request
to the OIG contacts mentioned in Appendix F.

OIG RESPONSE
We appreciate the comments from SSA and PA-L&I. We reaffirm our conclusions and
recommendations. We are pleased that PA-L&I will take action to strengthen its
security controls relating to the computer rooms, unattended but logged on computers
and the IDS in the Wilkes-Barre Office as stated in Recommendations 6, 7, and 8,
respectively. We are also pleased that PA-L&I has deobligated the invalid
move/expansion unliquidated obligations and corrected the charges, as stated in
Recommendations 4 and 5.

PA-L&I disagreed with Recommendations 1, 2, and 3, but was unable to provide
adequate documentation showing that PA-BDD was allocated central services Direct
Labor and Multifund costs in proportion to the benefits received.

With respect to PA-L&I’s comments on Recommendation 1, we discussed our findings
with the U.S. Department of Labor indirect cost negotiator and he agreed with our
assessment. As to the adequacy of the support provided, PA-L&I did not provide us
with source documentation linking the Direct Labor costs and Multifund costs to the
PA-BDD. Without the actual hours of work directly benefiting PA-BDD, PA-L&I lacks the
necessary data to calculate the amount of costs to be allocated.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                10
                                           Appendices




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)
                                                                       Appendix A

Acronyms
 C.F.R.           Code of Federal Regulations
 DDS              Disability Determination Services
 DI               Disability Insurance
 DSD              Disability Determination Service Security Document
 FFY              Federal Fiscal Year
 IDS              Intrusion Detection System
 LAO              Legislative Affairs Office
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 PA-BDD           Pennsylvania Bureau of Disability Determination
 PA-L&I           Pennsylvania Department of Labor and Industry
 POMS             Program Operations Manual System
 RO               Regional Office
 SSA              Social Security Administration
 SSA-4513         State Agency Report of Obligations for SSA Disability Programs
 SSI              Supplemental Security Income
 Treasury         Department of the Treasury
 U.S.C.           United States Code




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)
                                                                       Appendix B

Scope and Methodology
We reviewed the administrative costs reported by Pennsylvania Bureau of Disability
Determination (PA-BDD) on its State Agency Report of Obligations for the Social
Security Administration’s (SSA) Disability Programs (SSA-4513) for Federal Fiscal
Years (FFY) 2002 and 2003.

To accomplish our objectives, we:

•   Reviewed Office of Management and Budget Circular A-87 Cost Principles for State,
    Local, and Indian Tribal Governments, and appropriate sections of the Code of
    Federal Regulations, the United States Code, SSA’s Program Operations Manual
    System, and the Commonwealth of Pennsylvania Department of Labor and
    Industry’s (PA-L&I) Cost Allocation Plan.

•   Reviewed PA-L&I / PA-BDD policies and procedures related to personnel, medical,
    Indirect, and Nonpersonnel costs.

•   Interviewed employees from SSA, U.S. Department of Labor, PA-BDD, PA-L&I, and
    single audit certified public accountants.

•   Evaluated and tested internal controls regarding accounting, financial reporting and
    cash management activities.

•   Reviewed single audit work performed by certified public accountants to assess the
    internal controls and validity of payroll costs reported by the Commonwealth of
    Pennsylvania for FFYs 2002 and 2003. We were able to rely on the payroll work
    performed by the auditors and limit the extent of our payroll tests at the PA-BDD.

•   Conducted a limited review of the general security of the Harrisburg, Greensburg,
    and Wilkes-Barre PA-BDD locations.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures. We also tested timing of payroll draw downs to Cash
    Management Improvement Act agreement requirements.

•   Examined the administrative costs incurred and claimed by PA-BDD for Personnel,
    Medical, Indirect, and all other Nonpersonnel costs during FFYs 2002 and 2003.

•   Selected samples of payroll, medical evidence and all other nonpersonnel costs as
    described in the sampling methodology section on the following page.

•   Analyzed Indirect costs by applying the payroll cost base to agreed negotiated rates.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                 B-1
•   Reconciled the accounting records to the costs reported by PA-BDD on its Forms
    SSA-4513 for FFYs 2002 and 2003.

To meet the objectives of our review, we assessed the reliability of computer processed
data produced by the PA-L&I accounting system. We tested the data reliability
including tracing individual transactions to the source documents, recalculating totals
and other tests deemed necessary. We determined that the data was sufficiently
reliable.

We performed audit work at PA-L&I and PA-BDD in Harrisburg, Greensburg and
Wilkes-Barre, Pennsylvania between May 2004 and December 2004. The entity
audited was the Office of Disability Determinations within the Office of the Deputy
Commissioner for Disability and Income Security Programs. We conducted our audit in
accordance with generally accepted government auditing standards.

SAMPLING METHODOLOGY
Our sampling methodology included the three general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other nonpersonnel costs. We
obtained data extracts from PA-BDD for FFYs 2002 and 2003 to use in statistical
sampling. Indirect cost was not sampled but we reviewed the indirect cost calculations
for FFYs 2002 and 2003 to ensure the correct rate was applied. After selecting and
reviewing the randomly selected samples, we did not identify errors that we felt
warranted statistical projection.

Personnel Costs

We reviewed 10 employees’ transactions from 1 pay period in FFY 2003. We tested
payroll records to ensure PA-BDD accurately paid its employees and adequately
supported these payments. In addition, payroll costs recorded in the PA-L&I accounting
system were verified to payroll registers provided by the Bureau of Commonwealth
Payroll Operations for 5 pay periods. We reviewed contracts and tested the validity of
invoices for seven medical consultants who were paid in FFYs 2002 and 2003.

Medical Costs

We reviewed 200 medical cost items (100 items from each FFY) using a simple random
sample. We evenly distributed the sample items between medical evidence of records
and consultative examinations.

All Other Nonpersonnel Costs

We reviewed 100 all other nonpersonnel cost items (50 items from each FFY) using
a stratified random sample. Before our sample selection, we sorted the transactions
into the following categories: (1) Non-DDS Personnel, (2) Telecommunications/EDP,




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)               B-2
(3) Specialized Services, (4) Travel, and (5) All Other Object Codes. We also selected
nine FFY 2002 records (two records classified as pre-payments, three systems analysis
and program accounting records charged to FFY 2002, but processed in FFY 2003, and
four rental records) and four FFY 2003 records (four rental records).




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)             B-3
                                                                       Appendix C

Schedules of Obligations Reported, Questioned
and Allowed




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)
                                                                                                                                                     Appendix C
                        Pennsylvania Bureau of Disability Determination Reported and Allowable Costs
                                        Table 1 – Administrative Costs for Federal Fiscal Year 2002
                                                                   As of September 30, 2003
                       COSTS                            REPORTED ON FORM                    AUDIT ADJUSTMENTS                           ADJUSTED COSTS
                                                            SSA-4513

     PAYROLL:
      DISBURSED                                                         $41,528,448                             ($15,144)     *1                         $41,513,304
      UNLIQUIDATED                                                          394,107                                    0                                     394,107
     TOTAL PAYROLL COST                                                  41,922,555                              (15,144)                                 41,907,411

     MEDICAL:
      DISBURSED                                                           18,799,347                                     0                                18,799,347
      UNLIQUIDATED                                                            41,729                                     0                                    41,729
     TOTAL MEDICAL COST                                                   18,841,076                                     0                                18,841,076

     INDIRECT COST:
      DISBURSED                                                               426,050                                    0                                    426,050
      UNLIQUIDATED                                                                433                                    0                                        433
     TOTAL INDIRECT COST                                                      426,483                                    0                                    426,483

     ALL OTHER NONPERSONNEL:
      DISBURSED                                                             6,068,650                          (468,635)      *2                            5,600,015
      UNLIQUIDATED                                                          2,978,282                          (770,775)      *3                            2,207,507
     TOTAL ALL OTHER COST                                                   9,046,932                        (1,239,410)                                    7,807,522

     TOTAL DISBURSED                                                      66,822,495                           (483,779)                                  66,338,716
     TOTAL UNLIQUIDATED                                                    3,414,551                           (770,775)                                   2,643,776
     TOTAL OBLIGATIONS                                                    $70,237,046                       ($1,254,554)                                  $68,982,492


    *1 Adjustment - payroll costs incurred in FFY 2003, but charged to FFY 2002, see section “Expenses Charged to the Wrong Federal Fiscal Year.”
    *2 Adjustment - $433,291 in unsupported documentation labor costs and offset costs, $21,285 unallowed Legislative Affairs Office and $3,297 unallowed allocated breaks
       $4,289 in unallowable parking costs, $3,769 of prepaid supplies charged to the wrong year, and $2,704 telecommunication usage charged to the wrong year.
    *3 Adjustment of $770,775 unliquidated obligations unsupported by authorized contracts or purchase orders.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                                                                                                         C-1
                          Pennsylvania Bureau of Disability Determination Reported and Allowable Costs
                                          Table 2 – Administrative Costs for Federal Fiscal Year 2003
                                                                     As of September 30, 2003

                   COSTS                              REPORTED ON FORM                         AUDIT ADJUSTMENTS                               ADJUSTED COSTS
                                                          SSA-4513

 PAYROLL:
  DISBURSED                                                                                                                          *1
                                                                         $42,382,094                                  $15,144                                   $42,397,238
  UNLIQUIDATED                                                               964,873                                        0                                       964,873
 TOTAL PAYROLL COST                                                       43,346,967                                   15,144                                    43,362,111

 MEDICAL:
  DISBURSED                                                               17,524,553                                          0                                  17,524,553
  UNLIQUIDATED                                                             2,602,043                                          0                                   2,602,043
 TOTAL MEDICAL COST                                                       20,126,596                                          0                                  20,126,596

 INDIRECT COST:
  DISBURSED                                                                   227,353                                         0                                      227,353
  UNLIQUIDATED                                                                298,832                                         0                                      298,832
 TOTAL INDIRECT COST                                                          526,185                                         0                                      526,185

 ALL OTHER NONPERSONNEL:
  DISBURSED                                                                 5,700,411                                (326,662)       *2                            5,373,749
  UNLIQUIDATED                                                              4,183,196                              (1,491,970)      *3                             2,691,226
 TOTAL ALL OTHER COST                                                       9,883,607                              (1,818,632)                                     8,064,975

 TOTAL DISBURSED                                                          65,834,411                                (311,518)                                    65,522,893
 TOTAL UNLIQUIDATED                                                        8,048,944                              (1,491,970)                                     6,556,974
 TOTAL OBLIGATIONS                                                       $73,883,355                             ($1,803,488)                                   $72,079,867

*1 Adjustment - payroll costs charged to FFY 2002 corrected to FFY 2003, see section “Expenses Charged to the Wrong Year.”
*2 Adjustment - $296,871 in unsupported Labor costs and offsets, $11,948 in unsupported Multifund costs, $11,710 unallowed Legislative Affairs Office, $3,297 unallowed breaks,
   $5,540 unallowable parking lot costs, ($2,704) telecommunication usage charged to the wrong year.
*3 Adjustment - $1,381,094 unliquidated obligations unsupported by authorized contracts or purchase orders, and $110,876 subsequent rental costs incurred in FFY 2004, but charged
   to FFY 2003.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                                                                                                        C-2
                                                                       Appendix D

Agency Comments
August 09, 2005

Administrative Costs Claimed by the Pennsylvania Bureau of Disability
Determination (A-15-04-1080)--Philadelphia Region Response


Our comments on the SSA OIG Audit of Administrative Costs Claimed by the
Pennsylvania Bureau of Disability Determination (BDD) (A-15-04-14080) for Fiscal
Years ending 2002 and 2003 are presented below. We have reviewed and taken into
account the Pennsylvania Department of Labor & Industry's (PA L&I) response to the
draft report which was provided directly to you.

Recommendation 1:
Work with the PA-L&I to determine the validity of the charges of $433,291 in
Federal Fiscal Year (FFY) 2002 and $296,871 in FFY 2003 in unsupported PA-L&I
direct labor, as well as $11,948 in FFY 2003 Multifund costs, which would allow a
reviewer to understand why costs were charged to the PA-BDD and the purpose
of the services.

   •   We will work with the PA-L&I to determine the validity of the direct labor charges.
       While the documentation provided by the PA-L&I does not support the stated
       charges in accordance with regulations, it does provide information on how these
       costs were charged and the purpose of the services. We will work with PA-L&I so
       that future direct labor charges reflect actual effort provided to the PA-BDD.

   •   We will work with the PA-L&I to determine the validity of the FFY 2003 multi-fund
       costs. The system deficiency that created this one time event has been
       corrected to ensure this will not occur in the future.

Recommendation 2:
Instruct the PA-L&I and PA-BDD to reimburse SSA for $21,285 in FFY 2002, and
$11,710 in FFY 2003 for unallowable costs of the Legislative Affairs Office (LAO),
and $3,297 in FFY 2002 and $3,297 in FFY 2003 for the allocation of an employee’s
breaks charged to PA-BDD.

   •   We agree that PA-L&I costs allocated to PA-BDD for the Legislative Affairs Office
       (LAO) are unallowable costs and will instruct the PA-L&I to reimburse SSA for
       these charges in the amount of $21,285 for FFY 2002 and $11,710 for FFY 2003.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)                  D-1
   •   We agree that the PA-L&I should reimburse the charges of $3,297 for FY 2002
       and $3,297 for FFY 2003. The allocation of an employee's breaks was
       acknowledged by the PA-L&I as an anomalous occurrence and corrective action
       has been taken by PA-L&I to discontinue this practice.

Recommendation 3:
Instruct the PA-L&I and PA-BDD to discontinue the practice of charging PA-BDD
for parking costs at the PA-L&I and reimburse SSA the parking costs of $4,289 for
FFY 2002 and $5,540 for FFY 2003.

   •   We agree with the recommendation and will instruct PA-L&I to reimburse SSA in
       the amounts of $4,289 and $5,540 respectively for FFYs 2002 and 2003.

Recommendation 4:
Improve internal controls over the obligation process to ensure only properly
supported obligations are recorded and deobligate the invalid move/expansion
unliquidated obligations of $770,775 for FFY 2002 and $1,381,094 for FFY 2003

   •   We agree with the recommendation in the draft report. The PA L&I response to
       this recommendation shows that unliquidated obligations in FFY 2002 have
       already been deobligated from FFY 2002, and the balance of unliquidated
       obligations in FFY 2003 are in the process of being deobligated.

Recommendation 5:
Improve internal controls to prevent costs from being charged to incorrect FFYs
and make correction entries to adjust $132,493 of costs charged to the wrong
FFYs.

   •   We agree with the recommendation in the draft report. The PA L&I response to
       this recommendation shows that the items listed in the audit report have been
       transferred to the correct FFY.

Recommendation 6:
Improve security in the PA BDD computer rooms by restricting possible access
through the open ceiling.

   •   We agree with the recommendation in the draft report. The PA L&I response
       shows that corrective action has been taken or is underway.

Recommendation 7:
Reinforce good security habits to ensure all staff log off their computers when
stations are unattended.

   •   We agree with the recommendation in the draft report. The PA L&I response
       indicates that corrective action has been taken.


Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)               D-2
Recommendation 8:
Increase the security of the Wilkes-Barre location through installation of IDS in
staff work areas where windows and rooms have no sensors.

   •   We agree with the recommendation in the draft report. The PA L&I response
       states that this recommendation will be met when the Wilkes-Barre office
       relocates in October 2005.

We appreciate the opportunity to comment. If you have any questions, please contact
Betty Martin in the Center for Disability Programs at 215-597-2047.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)               D-3
                                                                       Appendix E

State Agency Comments




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-1
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-2
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-3
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-4
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-5
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-6
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-7
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-8
Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)   E-9
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts

       Victoria Vetter, Director (410) 966-9081

       Lance Chilcoat, Audit Manager (410) 965-9743

Acknowledgments
In addition to those named above:

       Sigmund Wisowaty, Auditor-in-Charge

       Jackie Patel, Senior Auditor

       Richard Wilson, Senior Auditor

       Ronald Anderson, Auditor

       Brennan Kraje, Statistician

       Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-04-14080.




Administrative Costs Claimed by the Pennsylvania BDD (A-15-04-14080)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
